<html>
<title> - THE SMITHSONIAN INSTITUTION'S PRIORITIES</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]









                THE SMITHSONIAN INSTITUTION'S PRIORITIES

=======================================================================

                                HEARING

                               before the

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 28, 2017

                               __________

      Printed for the use of the Committee on House Administration









[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]















                       Available on the Internet:
       www.gpoaccess.gov/congress/house/administration/index.html
                                         ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

25-576                         WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                           
       
       
       
       
       
       
       
       
       
       
       
       
       
       
                   Committee on House Administration

                  GREGG HARPER, Mississippi, Chairman
RODNEY DAVIS, Illinois, Vice         ROBERT A. BRADY, Pennsylvania,
    Chairman                           Ranking Member
BARBARA COMSTOCK, Virginia           ZOE LOFGREN, California
MARK WALKER, North Carolina          JAMIE RASKIN, Maryland
ADRIAN SMITH, Nebraska
BARRY LOUDERMILK, Georgia

 
                THE SMITHSONIAN INSTITUTION'S PRIORITIES

                              ----------                              


                        TUESDAY, MARCH 28, 2017

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 11:38 a.m., in Room 
1310, Longworth House Office Building, Hon. Gregg Harper 
[Chairman of the Committee] presiding.
    Present: Representatives Harper, Davis, Comstock, Smith, 
Brady, and Raskin.
    Staff Present: Sean Moran, Staff Director; Kim Betz, Senior 
Advisor; Mary Sue Englund, Director of Administration & 
Operations; Cole Felder, Deputy General Counsel; Erin 
McCracken, Communications Director; C. Maggie Moore, 
Legislative Clerk; Rob Taggart, Deputy Legislative Clerk/
Oversight; Mary Sue Englund, Director of Administration & 
Operations; Jamie Fleet, Minority Staff Director; Matt Pinkus, 
Minority Senior Policy Advisor; Khalil Abboud, Minority Chief 
Counsel; and Eddie Flaherty, Minority Chief Clerk.
    The Chairman. I now call to order the Committee on House 
Administration for today's hearing examining the Smithsonian 
Institution and its priorities. The hearing record will remain 
open for 5 legislative days so members may submit any materials 
they wish to be included. A quorum is present, so we may 
proceed.
    In 1846, Congress created the Smithsonian Institution at 
the behest of Englishman James Smithson. A scientist by trade, 
Mr. Smithson willed his estate to the United States to found at 
Washington under the names of the Smithsonian Institution an 
establishment for the increase and diffusion of knowledge.
    Today, the Smithsonian Institution encompasses 19 museums, 
9 research centers, and the National Zoo. The Smithsonian 
Institution plays a critical role in collecting and preserving 
our Nation's history and culture. The Smithsonian Institution 
also works with entities around the world to advance critical 
scientific discovery and research.
    For the past 20 months, Secretary David Skorton has led the 
Institution. The Committee looks forward to discussing the new 
strategic plan, which is currently being drafted with Secretary 
Skorton, that will guide the Smithsonian Institution over the 
next decade. We expect to hear from Secretary Skorton on the 
challenges the Smithsonian Institution faces, particularly in 
an environment in which Federal funding is uncertain, at best.
    These challenges include such things as balancing new 
strategic initiatives with available funding; broadening public 
access to its collections both in person and digitally; 
operating a new museum, the National Museum of African American 
History and Culture, and revitalizing one of the most visited 
museums in the world, the National Air and Space Museum; 
preserving priceless collections for scientific research to 
tell the American story; and--not glamorous but very 
important--prioritizing facility maintenance and revitalization 
needs.
    I particularly want to focus on this last challenge. It is 
our hope to address the realities faced by the Smithsonian 
Institution today. By realities, I am talking about the growing 
list of deferred maintenance projects, the rising costs 
associated with maintaining and operating museums and 
facilities, and protecting collections for their future use. 
These realities must be a pillar of the upcoming strategic 
plan, and this Committee looks forward to seeing the strategic 
plan upon its completion.
    So I thank Secretary Skorton for his appearance before the 
Committee today. And I would like to now recognize the Ranking 
Member of the Committee, Mr. Brady, for the purpose of 
providing an opening statement.
    Mr. Brady.
    Mr. Brady. Thank you, Mr. Chairman. Thank you for calling 
this hearing.
    Everyone loves the Smithsonian, so I appreciate the 
opportunity to hear from our witness about what is happening 
there and how we can be helpful.
    Of course, I emphasize my number one concern about the 
Smithsonian: that access to our museums and many of our 
exhibits remain free. That has always been my priority.
    I want to acknowledge the Smithsonian presence in my 
district. The African American Museum in Philadelphia and the 
National Museum of American Jewish History are Smithsonian 
affiliates, and they are proud of that, and I am honored to 
represent those great institutions. Also, since 2012, the 
Smithsonian has had 40 fellows, 59 interns, and 31 research 
associates from my district. So I am well represented there. I 
am proud of the work my constituents are doing to advance the 
cause of the Smithsonian.
    I look forward to hearing from you, Mr. Secretary.
    And I yield back the balance of my time.
    The Chairman. The gentleman yields back.
    Does any other Member wish to be recognized for the purpose 
of an opening statement?
    Seeing none, I would like to now introduce our witness. Dr. 
David Skorton is the 13th Secretary of the Smithsonian. He 
assumed his position in July, on July 1, 2015. As Secretary, 
Dr. Skorton oversees the entire Institution and its entities. 
Dr. Skorton is the first physician to lead the Smithsonian. He 
is a board certified cardiologist and previously was the 
president of Cornell University.
    Again, we thank the Secretary for joining us today. And the 
Committee has received your written testimony. And the chair 
now recognizes Secretary Skorton for 5 minutes.
    Dr. Skorton.

   STATEMENT OF DR. DAVID J. SKORTON, SECRETARY, SMITHSONIAN 
                          INSTITUTION

    Dr. Skorton. Thank you, Chairman Harper and Ranking Member 
Brady and all the Members of the Committee, for the opportunity 
and the honor of testifying today.
    My colleagues and I greatly appreciate the continuing 
support of the Congress and your confidence in our work to 
understand, preserve, and tell the story of America, and to 
inspire new generations to dream the American Dream.
    Your investment in the Smithsonian is an investment in the 
civic, educational, scientific, and artistic life of our 
Nation. The Smithsonian is the world's largest museum, 
education, and research complex, and through our museums, the 
National Zoo, the research centers, and education initiatives, 
we seek every day to help all of us, as Americans, understand 
each other, ourselves, and our role in the world, in part 
through the arts and humanities.
    We use increasingly cutting-edge technology to create 
unprecedented access to our treasures, and we seek to inspire 
educators, students, and learners of all ages.
    Last year was exceptional for the Institution, culminating 
with the opening of the National Museum of African American 
History and Culture. This beautiful and thought-provoking 
museum has been a huge success with the public. We have hosted 
more than a million visitors since the end of September.
    The year 2017 will be a time of transition for our 
Institution as we implement, as the Chairman mentioned, a new 
strategic plan. Building on the tremendous momentum of the 
previous strategic plan, we are working closely with the 
Strategic Planning Committee to incorporate input from across 
the Smithsonian before presenting the plan to our Board of 
Regents, to the Office of Management and Budget, and to the 
Congress.
    A strong strategic plan will allow the Institution to focus 
even more effectively on our key priorities: improving how we 
pursue our core mission; better leveraging partnerships with 
American and international organizations; communicating more 
effectively; cultivating our generous donors and supporters; 
and identifying and advancing special specific initiatives.
    In the months and years ahead, we seek to increase our 
positive impact as we convene important conversations, continue 
our important work in science and history, while sharpening our 
focus on the arts, promoting diversity leadership, enhancing 
our global reach, establishing a culture of national thought 
leadership, greatly increasing digital access, and refocusing 
expenditures on maintaining and revitalizing existing 
facilities.
    Many important issues have a national and global impact, 
and the Smithsonian is bringing people together to discuss 
solutions. Our research centers do important work to understand 
the correlation between healthy ecosystems and our own well-
being, a concept termed by the Center for Disease Control as 
One Health, helping us to address emerging threats from 
pandemic disease to species decline.
    Research and scholarship at the Smithsonian are anchored by 
our national collections. Today, I brought some personal 
favorites, especially Sandy Koufax's baseball mitt, which would 
have been a favorite of my late dad, who was a big fan of his. 
It is our obligation in the public interest to hold these 
national treasures and preserve them for future generations.
    One way that we preserve and expand access to our 
collections is by digitizing them. To date, we have digitized 
more than 29 million items from the 154 million items in the 
collection, with many available to download in people's homes, 
in labs, and in classrooms, and in this way we seek to serve 
the many, many Americans who cannot visit our museums on The 
Mall or in New York City.
    Our Collections Space Framework Plan guides our long-term 
decisions about the collections from our facilities to the way 
we care for the collections. Facilities maintenance will be a 
major focus in the coming years as we continue to address our 
large deferred maintenance and repair needs. Reducing this 
backlog, I believe, gives the best value to the American 
taxpayer, since inadequately funded maintenance can lead to 
costlier capital improvements down the road.
    One such project that the Chairman mentioned is the 
National Air and Space Museum revitalization. As you know, the 
building systems have greatly exceeded their useful lives. They 
are overtaxed by the over 7 million annual visitors to the 
museum, which is nearly four times more than they were designed 
for. The building's exterior stone cladding is failing and 
needs to be replaced.
    The Air and Space Museum project 35 percent design 
estimates are $676 million, but as it evolves, every effort is 
being made to contain these project costs. Although this is an 
enormous expense, we believe the project is absolutely 
essential and hope to begin construction in fiscal year 2018.
    We will leverage this Federal investment by raising an 
additional quarter of a billion dollars in private support to 
totally revamp the 23 galleries throughout the facility. The 
result will be an exciting new experience, in essence, a new 
National Air and Space Museum.
    While the Smithsonian is nationally important, our reach is 
also global. We work around the world to protect and preserve 
cultural heritage and to do groundbreaking scientific research.
    In 2017, we aim to finalize an agreement with the renowned 
Victoria & Albert Museum to create a first international museum 
exhibition presence in London, which does not involve a capital 
project.
    Though our creative staff continues to have impressive 
success, we do face significant challenges. We need to provide 
adequate staffing, including security, at the new National 
Museum of African American History and Culture. We need to fill 
more curatorial positions throughout the Institution and 
enhance security across our most visited sites.
    As we look ahead to fiscal 2018, the Institution is 
prepared for any budget contingencies. We have recently 
appointed a group of 10 unit directors to serve as a budget 
review panel to look at potential scenarios and to make 
recommendations to ensure the most efficient use of precious 
Federal resources.
    Given our budgetary constraints and a growing maintenance 
backlog and facility renovation, we must use capital resources 
wisely and efficiently. We are fully committed to better 
telling the story of all Americans. However, despite the worthy 
recommendations for new museums to be added to the Smithsonian, 
we currently lack the capacity and resources to bring new 
museums to fruition.
    Again, I am honored to be a part of this great Institution. 
The Smithsonian is a valuable resource that I believe has 
proven its worth for 171 years as a steward of our past and 
investment in our future. I am confident that with the 
continued support of Congress and the administration, we can be 
even more relevant and a unifying presence in an increasingly 
diverse and vibrant America.
    Thank you for the chance of interacting with you today, and 
I look forward to any and all questions. Thank you.
    [The statement of Dr. Skorton follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    The Chairman. Thank you, Secretary Skorton, for your 
testimony.
    We will now move to our questions portion, and I will begin 
by recognizing myself for 5 minutes.
    There are so many treasures, and of course you have brought 
just a small collection here but of pretty priceless baseball 
objects. But these treasures are throughout the system.
    And one of my favorites is in the Air and Space Museum, 
which is our plane from Mississippi, the Key Brothers airplane, 
the old Curtiss Robin monoplane, where in 1935 the Key Brothers 
set the flight endurance record at 27 days without landing, and 
that is still the record for that. And so your plane hangs in 
the Smithsonian when that happens. So it is something that is a 
real treasure to us to see that.
    But I wanted to talk to you about some of these issues, 
particularly where we are on how we are going to move forward 
and do the things that are necessary. What do you see as the 
biggest risk facing the Smithsonian today or in the future, and 
how do you intend at the Smithsonian to manage that risk?
    Dr. Skorton. Thank you, Mr. Chairman.
    We really have two categories of risks to the Smithsonian. 
One is the risk of our inability to keep up with the 
maintenance and revitalization backlog. We maintain 
approximately 12 million square feet of space. Last year, we 
had over 20 million individual visitors to our museums. And in 
some cases, like the National Air and Space Museum, we continue 
to have multiples of the number of visitors that my 
predecessors thought might actually come, almost four times the 
number right now that were initially suggested.
    So that is just one of many examples. And as I mentioned in 
the testimony, it is very important to realize that inadequate 
funding and attention to maintenance and backlog and 
revitalization needs will eventually lead to costlier capital 
projects. So that is one whole category.
    The other category, besides the physical capital, is the 
human capital, and it is very important that we pay attention 
to our curatorial ranks, to the science ranks. Like all 
organizations in our country, we are graying, and the aging 
workforce at the Smithsonian means that we have to be ready to 
hire a renewed workforce as people get to retirement.
    And so we are planning very carefully our use of resources 
so that we can increase the curatorial ranks, some hopefully by 
Federal funding, some through philanthropy, and in the meantime 
work on these capital issues.
    The Chairman. Okay. How will the national campaign, how 
will the funds raised from the national campaign support the 
operations and maintenance of facilities?
    Dr. Skorton. So the national campaign, which has been very, 
very successful because of the huge generosity of the American 
public, corporations, and individuals, we have raised over $1.6 
billion in the campaign so far. The campaign continues through 
the end of this calendar year.
    The funds are used for a wide variety of uses, but to 
specifically answer your question about facilities, they are 
used for upgrades and renovations largely to interior spaces.
    And so one example that those of us in Washington know 
about is the renovation of the Renwick Gallery, and this 
allowed us to do things in that space that we were unable to do 
and led to a tremendous, tremendous increase in visitorship to 
that. And there are other examples, but that is one that I 
think shows the possibility of philanthropy helping us.
    It is difficult to raise philanthropy for the sort of 
changes that need to be done to the National Air and Space 
Museum, I want to hasten to add however, because, for example, 
replacing now defective stone cladding on the outside, in my 
experience fundraising of approximately 25 years, I have found 
it hard to get philanthropists interested in that sort of 
project, whereas interior things we can.
    And to restate it, our goal is to raise a quarter of a 
billion dollars to redo every single one of the 23 galleries 
within the museum.
    The Chairman. It is obviously a goal of, I think, all of 
us, and I know you, to make sure that admission to the 
Smithsonian remains free of charge so that groups, school 
groups and others, can come up and not have an expense to come 
in. So what populations of visitors, who can we get to come in? 
How can we expand what is there to open this up even further?
    Dr. Skorton. First of all, I want to thank you for bringing 
the point up and thank the Ranking Member, too, for bringing up 
the point about free entry. I am absolutely committed, as is 
the entire Smithsonian family, to maintaining free access to 
these museums. It is critical, the museums were set up in the 
public interest, and we want to be there for all Americans.
    Having said that, our best efforts to get people to come to 
The Mall and to our facilities in New York City are always 
going to fall short of the number of Americans who could 
attend. So we are trying in other ways to reach out to America 
where it lives.
    One approach is through digitization of the collections to 
the extent that we can do that, and that allows us to allow 
people in their own living room, so to speak, to look at 
individual parts of the collection and learn more about all the 
things that we are studying.
    The second, as you have mentioned very kindly, is our 216 
affiliate museums around the country, and we have affiliate 
museums in all the States represented on this Committee.
    A third is our Traveling Exhibition Service, which allows 
us to bring parts of our collection to Main Street USA. And 
then we have other ideas through the use of social media and 
other new technologies to reach out to America.
    So we want to make sure that people feel welcome at The 
Mall and welcome in other parts of the city where we have 
facilities here and in New York City, but we also want to reach 
out beyond. And to summarize again at the end, we are 
absolutely committed to maintaining free admission.
    The Chairman. Thank you so much, Secretary Skorton.
    I will now recognize the Ranking Member, Mr. Brady, for 5 
minutes for questions.
    Mr. Brady. Thank you, Mr. Chairman.
    I think I heard your last statement, you are going to keep 
it free, right?
    Dr. Skorton. Yes.
    Mr. Brady. Free admission. Thank you. I appreciate that.
    What more can we do to expand the Smithsonian Affiliates 
Program? I have two, as I mentioned in my earlier statement, in 
my district, and I think it is a good way to bring the power of 
the Smithsonian to other parts, other districts throughout the 
United States. It is good to feel and hand touch and see, and 
that instead of coming to Washington, I think you can get a 
glimpse and maybe hopefully come to Washington and visit the 
main campus, so to speak.
    Dr. Skorton. I am hungry to continue to grow our Affiliates 
Program. It has grown very substantially under the leadership 
of my predecessor, Wayne Clough, and through the leadership of 
our acting provost, who is right here, Richard Kurin, and it 
has grown substantially even in the 2 years or so that I have 
been here.
    So if you have any ideas, Congressman, please send them 
directly to me, and we will continue to look into it. In the 
meantime, we are also making sure that we have this robust 
Traveling Exhibition Service so that we can go out to areas 
around the country. And I am committed to both of those being 
very robust.
    Mr. Brady. Good. Thank you. And also, I want to commend you 
for your wisdom in maintaining and keeping Mr. Greg Abbott 
behind you there. Greg is formerly from my staff, and I know he 
is a great addition and does a great job. And we talked all the 
time when we had our hearings for 2 or 3 days that it is hard 
to keep good staff. It is hard to keep them when you have got 
to pay them. And so I am sure he wouldn't mind a raise, sir.
    I got to give you a plug, Greg, got to give you a plug.
    Dr. Skorton. You know, I have been told by our HR office to 
just not answer questions about Mr. Abbott's salary.
    Mr. Brady. Well, I will make a private conversation 
someday.
    Dr. Skorton. I am at your service, sir.
    Mr. Brady. Thank you. Thank you, Mr. Secretary.
    Thank you, Mr. Chairman. I yield back my time.
    The Chairman. The gentleman yields back.
    I now recognize Mrs. Comstock for 5 minutes.
    Mrs. Comstock. Thank you, Mr. Chairman.
    And I thank the witness today. It is delightful to be with 
you.
    I think I was in third grade when I first came to the 
Smithsonian. My mom is a teacher, and so we dutifully went 
through all of the highlights of the museum at that age. And 
she did the same with my three children. And now she is a 
docent at the Smithsonian, and so she is very good at now 
bringing the great-grandchildren around.
    And I am fortunate to have the Udvar-Hazy Center museum in 
my district, and so my 2-year-old granddaughter and I and my 
husband were out there a few weeks ago. And I loved the little 
picture set-up you have where you can have a little space suit 
photo shopped on to you, and she was very excited. She got her 
ride in the spaceship, on the space shuttle, and then she got 
that picture.
    So that is in her room, and she is thrilled. So when she is 
an astronaut somewhere down the road heading to Mars, we can 
thank you for all the good efforts that you make there.
    So I did want to ask about the Udvar-Hazy, as some of the 
renovations are going on, and the planes and all, and the 
storage facilities. How is that progressing at this time?
    Dr. Skorton. Thank you for your kindness. And I just want 
to mention, we want to invite you and your granddaughter to 
come to the National Museum of American History where the 
Wegmans Corporation has developed something we call 
Wonderplace, and it is aimed at children ages zero to 6, zero 
to 6. So we are very interested in early child----
    Mrs. Comstock. Wonderplace?
    Dr. Skorton. It is called Wonderplace in the National 
Museum of American History. And we are glad to work with your 
staff. If you want to come, we are actually more interested in 
having your grandchild, but you could also come along.
    Mrs. Comstock. I will get good grandma, nana points.
    Dr. Skorton. But thank you very much for bringing up the 
issue of storage space relevant to the National Air and Space 
Museum.
    If I may take just a moment, Chairman, I would like to just 
remind people the strategy that we want to use in revitalizing 
the National Air and Space Museum. We have two basic axioms 
that we want to follow in doing the revitalization. One is that 
we want to end up giving the United States of America a new 
National Air and Space Museum at the least possible cost, even 
though obviously it is a tremendous cost. And secondly, we want 
to keep the museum open to the American public. So our plan is 
to do it in phases and always to keep at least half of the 
museum open.
    In order to do that, we have to put some of the precious 
artifacts in there somewhere else. And so we have asked for--it 
is going to be one of our top requests coming up--for an 
additional storage facility, as Representative Comstock 
mentioned, in your district, in the Udvar-Hazy area.
    That will serve two purposes. The first purpose is that it 
will allow us to efficiently move along with the plans for the 
revitalization. And then when that revitalization is complete, 
we will use that new storage facility to give us a big jump-
start on replacing some inadequate and nonoptimal storage that 
we have throughout our system because the growth in our 
collection has been done at such a breakneck pace.
    So that is the reason that that is a very high priority for 
us, and we hope for Congress' support in that request.
    Mrs. Comstock. Thank you. And I did have one--first of all, 
I also want to thank you for digitizing the collection because 
I do see, as schools are--particularly in my area, since I am 
here locally--they are cutting back on field trips. They are 
not getting down and using the museums as much as they might. 
And I am always surprised at even on weekends people not 
getting down and using this, you know, coming. I guess maybe 
parking is always a challenge, and if Metro is not working 
right and all of that. We have Metro in my region, so as it 
expands, hopefully we will get folks back in here. But I really 
appreciate the digitizing of it because I think that can bring 
it to life and hopefully spur that interest.
    But on another, very different front, because I noticed 
that some of the people who are leaving in some of the senior 
positions at the museum, how do you plan for that transition 
and finding those key people? Because obviously these are very 
unique and important jobs to have the understanding of how to 
run a museum and to really have that skill set with these 
unique jobs. Where do you find the folks, what is the 
transition process, and how can we help with making that as 
smooth as possible?
    Dr. Skorton. Thank you very much for recognizing our other 
big challenge besides facilities, and that is the human 
capital, as we put it. And thank you also for being sensitive 
to realize that the skill set needed to work at this kind of 
creative organization, if not unique, is at least very unusual.
    I have found two things since being at the Smithsonian that 
have been hugely, hugely gratifying on this front. First is an 
immense feeling of pride and I would even say joy in the 
workforce of the Smithsonian. We tend year after year after 
year to rank high in agencies of our size in terms of employee 
satisfaction; always trying to do better. And I think part of 
that is that they are very proud of the positive things that we 
can do for America through education, through research, and 
through the, as our founder called it, the diffusion that is 
the museums themselves.
    The second thing I have found is that when openings come up 
we are inundated with people who want to come, people from the 
inside of the Institution that want to move up the ladder, 
people from outside the Institution that want to become part of 
something that is attempting to do a positive.
    And if I might just say, in a time where museums and 
libraries are still respected and considered honest purveyors 
of information, I think people more and more would like to be a 
part of contributing to such a thing.
    So it is true, as you very insightfully noticed, that we 
have a lot of turnover happening in the Institution right now. 
A lot of it is because of people having served there a very 
long time.
    And just last night, in fact, Dr. Kurin and I were at a 
recognition party for our wonderful director of the National 
Museum of African Art, Dr. Johnnetta Cole, who likes to say 
that she just celebrated her 40th birthday times two.
    And we are just in the process of beginning to look into 
that situation. So it is a challenge. The good news is that 
people seem to be very, very interested in being part of the 
Smithsonian, and I believe that will continue in the future. 
Thank you for asking about that.
    Mrs. Comstock. I can tell you, my mom, being a docent, the 
joy that she sees in the place and being able to continue to 
work with children. Actually my daughter, the mom of the 
aforementioned little granddaughter who is 2 years old, I was 
telling my daughter where she should buy her house based on the 
lovely children who came down. She kept saying there in the 
area where they bought their house what a nice group of 
children there were that she was taking through.
    But the employees really do bring joy to those children, 
and it is a delightful place to volunteer and work. So thank 
you for creating that spirit.
    Dr. Skorton. Mr. Chairman, if I just might insert very 
quickly.
    The Chairman. Yes, sir.
    Dr. Skorton. Thank you also for reminding me to recognize 
our volunteers. We have about 6,500 paid employees. We have 
about the same number of in-person volunteers, as you mention, 
and we have about the same number of digital volunteers who 
help us with things from a distance. Without the volunteers, we 
would not be able to open the doors in the morning. So thank 
you very much, Representative Comstock, for reminding me.
    The Chairman. The gentlelady yields back.
    The Chair now recognizes the gentleman from Nebraska, Mr. 
Smith, for 5 minutes for questioning.
    Mr. Smith. Thank you. Thank you, Mr. Chairman.
    Thank you, Dr. Skorton. I appreciate your service.
    Deferred maintenance and backlogs and so forth, what would 
you say is the long-term plan to address this? And I see where 
there was a requested increase in facilities capital 
appropriations for fiscal year 2017. Can you speak to that?
    Dr. Skorton. Yes. Thank you very much, and thank you for 
your attention today.
    Deferred maintenance is a big issue and has been a big 
issue in every nonprofit I have worked for over the years, so 
it is definitely not unique to the Smithsonian.
    What is different about the Smithsonian is our public-
facing nature, that we have millions of Americans walking in. 
So we are concerned not only about the beauty of the buildings, 
but about their functionality, but especially about security 
and safety for the people who come in.
    Industry standards suggest that we should be spending 
something on the order of 2, maybe 3 percent of the base in 
maintenance each year, and I am very, very grateful to the huge 
steady support that Congress has given us. Nonetheless, I must 
say that the money that has been appropriated has been about 
half of what projections would be for the future.
    So more funding for maintenance, even though it is always 
hard to come by, is the bedrock of going forward. Once the 
funding is available, at whatever level, the other bedrock is 
having a carefully designed plan for prioritizing a dizzying 
number of things that need to be dealt with.
    And our facilities professionals have done, in my 
experience of 30 years of leading institutions, have done an 
absolutely world-beating job of prioritizing, based on really 
two criteria. One criterion, the chief one, is the public's 
safety and health. And the second one is what future costs 
could be reduced or prevented even if judicious things were 
done along the way to do maintenance and revitalization.
    And so because it is an interest of mine, Congressman, I 
have look very carefully in the weeds at how this is done. I am 
very impressed with what our facilities professionals are 
doing. And I hope to have more chance to speak to Members of 
Congress about the importance of saving future costs by doing 
some preventive maintenance and deferred maintenance in the 
Institution, and I very much appreciate your question.
    Mr. Smith. Sure. And you utilize a lot of partnerships with 
the private sector for promotion and exhibits and so forth. Can 
private sources of funds be used for maintenance? Do they get 
used for maintenance?
    Dr. Skorton. Private sources can definitely be used for 
interior changes. An example that I like to give is the Renwick 
Gallery in town here near the White House where many of the 
things inside were done through philanthropy, and there are 
other examples.
    In my fundraising experience, and it is a long experience, 
I have found it hard to interest philanthropists, either 
corporations or individuals, in helping with things that are 
falling apart, to just be plain about it. And we try that. I 
have tried in earlier philanthropic campaigns in other settings 
to interest donors in that, and I found it a very, very heavy 
lift to do that.
    Mr. Smith. Hard to put a family name on a new roof?
    Dr. Skorton. It is hard. It is hard. But I would tell you 
what is a beautiful partnership and a very exciting 
partnership, and I don't think there is a better exemplar in 
our country than the Smithsonian, is a partnership between 
solid Federal funding that makes philanthropists say: You know, 
if the U.S. Government is interested in keeping this thing at 
the top, I want to put my part in.
    And I like to think that it goes in the opposite direction 
as well. If I do my job and I bring in very robust 
philanthropic funding, and that is, trying to lift ourselves up 
by our own bootstraps, perhaps you will see us as not just 
showing up with our hand out. So I think both those things go 
together.
    Mr. Smith. Thank you.
    Dr. Skorton. Thank you very much.
    Mr. Smith. I yield back.
    The Chairman. The gentleman yields back.
    The Chair now recognizes the gentleman from Illinois, the 
Vice Chairman of the Committee, Mr. Davis, for 5 minutes.
    Mr. Davis. Thank you, Mr. Chairman.
    And thank you, Mr. Skorton, for being here today. My kids 
are always advocates of the Smithsonian when they are out here 
on regular occasions, and it is great to be able to let them 
roam The Mall and go see some of the great collections that you 
have.
    I have got a question about the Collections Space Framework 
Plan that identified 47 percent of collection storage space as 
unacceptable. What is the plan, and how does it address the 
collections remaining in unacceptable spaces until facilities 
can be revitalized or constructed to meet acceptable standards?
    Dr. Skorton. Thank you very much, Mr. Davis, for your 
attention to that matter and for focusing us on one of the 
things that genuinely keeps me up at night.
    So we have this national collection of 154 million objects 
and specimens and things, and that is just the physical. We 
also have millions and millions and millions of other things in 
archives and so on. And that will all be for naught if we can't 
take better care of them, so I appreciate your attention to 
that.
    We really have, again, a multiphased approach through our 
facilities professionals. One is, in every situation where 
maintenance is required, we have a careful prioritization. And 
in answer to Mr. Smith's question, I mentioned that we have 
this very careful process or prioritization based first on 
public safety and then based on the cost of eventual problems 
if we don't do it.
    In the case of the collections, the prioritization is based 
on how hard it would be to replace something. Many of these 
things are absolutely irreplaceable. And then secondly, what 
the actual risks are in that particular building, in that 
particular space within the building, in that particular part 
of the space.
    In some cases, the facilities professionals have been able 
to do relatively modest, inexpensive things, changing the way a 
cabinet is used or putting new cabinetry in or things of that 
sort. And in other areas, we have just done our best to move 
things around and try to put things that are in the most danger 
in the best space.
    But I appreciate your question. And I must say, make no 
mistake about it, that we need to pay more attention to this. 
We hope for your support of things like the Udvar-Hazy place, 
because we have as much to do in high priority projects as we 
have already done. So we are at about the halfway point on 
that.
    So again, it is prioritization, it is fixes that we can 
afford right now, and it is planning and working with the 
Office of Management and Budget and with Congress in general to 
put only our highest priority needs forward, which we have.
    Mr. Davis. So you are going to prioritize some of the needs 
that we need to address in a time when you know our Federal 
funds are very, very limited. I mean, these are concerns, 
because what you do and what the Smithsonian staff does on a 
regular daily basis is amazing. And to be able to have these 
properties, to be able to have these collections sitting in 
displays that are acceptable, great. To just the regular 
visitor, they may not know that some of these exhibits are in 
unacceptable standards.
    But at some point we will gladly ask you to come back, I am 
sure, at the Chairman's discretion, to talk about how you are 
working toward making these unacceptable conditions much more 
acceptable and how that prioritization is working on behalf of 
the Smithsonian, but in the end, working on behalf of the 
taxpayers who are the visitors to your Institution.
    So one last question. I do have a question about the Garber 
facility.
    Dr. Skorton. Garber, yes.
    Mr. Davis. Yeah. At what expense, both time and funds, does 
relocating collections from the Garber facility have on your 
operations?
    Dr. Skorton. Can you ask it one more time, sir? I didn't 
hear it right.
    Mr. Davis. At what expense, both time and funds, does 
relocating collections from the Garber facility have on your 
everyday operations?
    Dr. Skorton. I see. There is no question that relocating 
items from that facility has a direct effect on the efficiency 
of our operations. And I apologize, I don't have an exact 
number to tell you right now linked to that.
    But I wonder if this would be acceptable to the Vice 
Chairman and to the Chairman, if we came back to you very 
quickly with a more detailed set of information about the 
general question you asked, as well as the Garber, as well as 
the relationship between the request at Udvar-Hazy and what is 
happening at Garber and that day-to-day operation.
    If that would be acceptable, rather than give you an 
imprecise answer now, I would like to give you a more precise 
answer, which we can get to you in short order, if that is 
acceptable.
    Mr. Davis. Absolutely. Thank you. Thank you for your time.
    I yield back.
    The Chairman. The gentleman yields back.
    I want to tell you again how much we appreciate you being 
here today, Secretary Skorton. We take our oversight of the 
Smithsonian as a serious matter, just as you do your job. None 
of us like surprises, so we will certainly try to keep very 
open lines of communication. And likewise, we are available. If 
there is something that we need to know, I know you will reach 
out to us as you have been doing. And we appreciate the great 
work that your team is doing.
    With that, without objection, all Members will have 5 
legislative days to submit to the Chair additional written 
questions for the witness, which we will forward and ask the 
witness to respond as promptly as he can so his answers may be 
made a part of the record.
    Without objection, this hearing is adjourned.
    [Whereupon, at 12:16 p.m., the committee was adjourned.]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
</pre></body></html>
